APPENDIX
Exhibit A: Donelon v. Shilling, No. 2019-C-00514, Louisiana Supreme Court.
Judgment entered Apr. 27, 2020 ........................................................ 3
Exhibit B: Donelon v. Shilling, No. 2019-C-00514, Louisiana Supreme Court.
Judgment entered May 18, 2020 ........................................................ 8
Exhibit C: Donelon v. Shilling, No. 2017 CW 1545, Louisiana Court of
Appeal, First Circuit. Judgment entered Feb. 28, 2019 .................. 21
Exhibit D: Donelon v. Shilling, No. 651069, 19th Judicial District Court,
State of Louisiana. Partial Transcript of Oral Opinion entered Sept.
15, 2017 ............................................................................................. 52
Exhibit E: Donelon v. Shilling, No. 651069, 19th Judicial District Court,
State of Louisiana. Judgment entered Aug. 25, 2017 ..................... 57
Exhibit F: Donelon v. Shilling, No. 651069, Commissioner’s First
Supplemental, Amending and Restated Petition for Damages and
Request for Jury Trial entered Nov 29, 2016 .................................. 64
Exhibit G: Consulting Services Agreement between Milliman, Inc. and
Louisiana Health Cooperative, Inc., executed Aug. 4, 2011
......................................................................................................... 109

2

EXHIBIT A

3

FOR IMMEDIATE NEWS RELEASE

NEWS RELEASE #014

FROM: CLERK OF SUPREME COURT OF LOUISIANA

The Opinion(s) handed down on the 27th day of April, 2020 are as follows:
BY Crain, J.:
2019-C-00514

JAMES J. DONELON, COMMISSIONER OF INSURANCE FOR THE
STATE OF LOUISIANA, IN HIS CAPACITY AS REHABILITATOR OF
LOUISIANA HEALTH COOPERATIVE, INC. VS. TERRY S.
SHILLING, GEORGE G. CROMER, WARNER L. THOMAS, IV,
WILLIAM A. OLIVER, CHARLES D. CALVI, PATRICK C. POWERS,
CGI TECHNOLOGIES AND SOLUTIONS, INC., GROUP RESOURCES
INCORPORATED, BEAM PARTNERS, LLC, MILLIMAN, INC., BUCK
CONSULTANTS, LLC, AND TRAVELERS CASUALTY AND SURETY
COMPANY OF AMERICA (Parish of East Baton Rouge)
We granted this writ to determine whether the Louisiana Commissioner of
Insurance, as rehabilitator of a health insurance cooperative, in an action
arising out of an agreement between the cooperative and a third-party
contractor, is bound by an arbitration clause in that agreement. We find the
Commissioner not bound by the arbitration clause.
REVERSED AND REMANDED.
Retired Judge James H. Boddie, Jr., appointed Justice ad hoc, sitting for
Justice Marcus R. Clark.
Weimer, J., concurs and assigns reasons.

4

04/27/20
SUPREME COURT OF LOUISIANA
No. 2019-C-00514
JAMES J. DONELON, COMMISSIONER OF INSURANCE FOR THE
STATE OF LOUISIANA, IN HIS CAPACITY AS REHABILITATOR OF
LOUISIANA HEALTH COOPERATIVE, INC.
VS.
TERRY S. SHILLING, GEORGE G. CROMER, WARNER L. THOMAS,
IV, WILLIAM A. OLIVER, CHARLES D. CALVI, PATRICK C. POWERS,
CGI TECHNOLOGIES AND SOLUTIONS, INC., GROUP RESOURCES
INCORPORATED, BEAM PARTNERS, LLC, MILLIMAN, INC., BUCK
CONSULTANTS, LLC, AND TRAVELERS CASUALTY AND SURETY
COMPANY OF AMERICA

ON WRIT OF CERTIORARI TO THE COURT OF APPEAL, FIRST
CIRCUIT, PARISH OF EAST BATON ROUGE
CRAIN, J. 1
We granted this writ to determine whether the Louisiana Commissioner of
Insurance, as rehabilitator of a health insurance cooperative, in an action arising out
of an agreement between the cooperative and a third-party contractor, is bound by
an arbitration clause in that agreement. We find the Commissioner not bound by the
arbitration clause.
BACKGROUND
The facts critical to resolving this issue are not disputed. The Louisiana Health
Cooperative, Inc. (“LAHC”), a health insurance cooperative created in 2011
pursuant to the Patient Protection and Affordable Care Act, 42 U.S.C. § 18001 et
seq. (2010), entered an agreement with Milliman, Inc. for actuarial and other
services. By July 2015, the LAHC was out of business and allegedly insolvent.
Louisiana Insurance Commissioner James J. Donelon (“Commissioner”),
through the Deputy Commissioner of Financial Solvency, filed suit in the Nineteenth

1

Retired Judge James Boddie, Jr., appointed Justice ad hoc, sitting for Justice Clark.
1

5

Judicial District Court seeking a permanent order of rehabilitation relative to the
LAHC. The district court entered an order confirming the Commissioner as
rehabilitator and vesting him with authority to enforce contract performance by any
party who had contracted with the LAHC.
The Commissioner then sued multiple defendants in the Nineteenth Judicial
District Court, asserting claims against Milliman for professional negligence, breach
of contract, and negligent misrepresentation. According to that suit, the acts or
omissions of Milliman caused or contributed to the LAHC’s insolvency.
Milliman responded by filing a declinatory exception of lack of subject matter
jurisdiction, arguing the Commissioner must arbitrate his claims pursuant to an
arbitration clause in the agreement between the LAHC and Milliman. 2 The
Commissioner contended he is not bound by the arbitration clause and, pursuant to
Louisiana Revised Statutes 22:257(F), exclusive jurisdiction for the claims against
Milliman rests in the Nineteenth Judicial District Court.3
The district court denied Milliman’s exception. The court of appeal reversed,
treating Milliman’s exception as an exception of prematurity and sustaining it, thus
requiring the Commissioner to arbitrate his claims. Donelon v. Shilling, 2017-1545
(La. 2/28/19), 2019 WL 993328 (unpublished).
The Commissioner now makes several arguments for reversing the court of
appeal. He argues a choice-of-law provision dictates that New York law applies,

2

Section 4 of the agreement provides “any dispute arising out of or relating to the engagement of Milliman by [the
LAHC] … will be resolved by final and binding arbitration under the Commercial Arbitration Rules of the American
Arbitration Association.” We note that the American Arbitration Association administers the case, but the applicable
arbitration law is the Federal Arbitration Act (9 U.S.C. § 1 et seq.) because the FAA applies to all arbitrations
“involving [interstate] commerce.” Allied-Bruce Terminix Cos. v. Dobson, 513 U.S. 265, 115 S.Ct. 834, 130 L.Ed.2d
753 (1995). Milliman is domiciled in Washington and the LAHC in Louisiana; therefore, interstate commerce is
involved.
3

Louisiana Revised Statutes 22:257(F) provides:
The commissioner is specifically empowered to take over and liquidate the affairs of any health
maintenance organization experiencing financial difficulty at such time as he deems it necessary by
applying to the Nineteenth Judicial District Court for permission to take over and fix the conditions
thereof. The Nineteenth Judicial District Court shall have exclusive jurisdiction over any suit arising
from such takeover and liquidation. The commissioner shall be authorized to issue appropriate
regulations to implement an orderly procedure to wind up the affairs of any financially troubled
health maintenance organization.

2

6

which law prohibits enforcement of arbitration agreements in contracts with
insolvent insurers in either liquidation or rehabilitation. If state law applies, the
Commissioner avers it reverse preempts the Federal Arbitration Act pursuant to the
McCarran-Ferguson Act, 15 U.S.C. §§ 1011, et. seq. He also asserts the Nineteenth
Judicial District Court has exclusive jurisdiction, points to policy reasons to
distinguish himself, as rehabilitator, from the LAHC when enforcing the contract,
and contends the court of appeal incorrectly applied the direct-benefits estoppel
doctrine to enforce the arbitration clause.
ANALYSIS
We must determine whether the Commissioner can be compelled to arbitrate
pursuant to an arbitration clause in an agreement to which he is not a party. Critical
to this determination is the source of the Commissioner’s authority to enforce the
contract. To the extent the source is statutory, private parties have a limited ability
to contractually interfere.
Louisiana Constitution Article IV, Section 11, provides, “There shall be a
Department of Insurance, headed by the commissioner of insurance. The department
shall exercise such functions and the commissioner shall have powers and perform
duties authorized by this constitution or provided by law.” The drafters of the
constitution chose to leave the task of defining the powers and duties of the
Commissioner to the legislature. See Wooley v. State Farm Fire & Cas. Ins. Co.,
2004-882 (La. 1/19/05), 893 So. 2d 746, 767, (“Ultimately, [the 1973 Constitutional
Convention delegates] voted not to designate any powers and duties in
the constitution and to allow the legislature to specify the Commissioner’s powers
and duties.”) The legislature then enacted, in Chapter 9 of the Insurance Code, the
Louisiana Rehabilitation, Liquidation, Conservation Act (“RLCA”), La. R.S. 22:
2001, et seq., comprehensively setting forth the Commissioner’s rights and
obligations relative to insolvent insurers.
3

7

Louisiana Revised Statutes 22:2008 4 and 2009 5 generally give the
Commissioner the right to enforce the contracts of an insolvent insurer. Louisiana
Revised Statutes 22:2004(A) governs where the Commissioner may bring an action
to enforce such contracts, providing, in pertinent part: “[a]n action under this
Chapter brought by the commissioner of insurance, in that capacity, or as
conservator, rehabilitator, or liquidator may be brought in the Nineteenth Judicial
District Court for the parish of East Baton Rouge or any court where venue is proper
under any other provision of law.” 6
This suit related to the contract between the LAHC and Milliman is “an action
brought under [the RLCA]” by “the commissioner of insurance . . .as rehabilitator.”
The plain language of Louisiana Revised Statutes 22:2004(A) grants authority for
the Commissioner to bring such an action in the Nineteenth Judicial District Court
or any court where venue is proper. The statute permits the Commissioner to choose
where and how to litigate an action. By using the permissive “may,” the statute does
not foreclose the option of arbitration, if provided in a contract, but effectively
delegates the choice to the Commissioner. We hold that Louisiana Revised Statutes

4

Louisiana Revised Statutes 22:2008 provides in pertinent part:
A. After a full hearing, which shall be held by the court without delay, the court shall enter an order
either dismissing the petition or finding that sufficient cause exists for rehabilitation or liquidation
and directing the commissioner of insurance to take possession of the property, business, and affairs
of such insurer and to rehabilitate or liquidate the same as the case may be. The commissioner of
insurance shall be responsible on his official bond for all assets coming into his possession. The
commissioner of insurance and his successor and successors in office shall be vested by operation
of law with the title to all property, contracts, and rights of action of the insurer as of the date of the
order directing rehabilitation or liquidation.

5

Louisiana Revised Statutes 22:2009 provides in pertinent part:
A. Upon the entry of an order directing rehabilitation, the commissioner of insurance shall immediately proceed to conduct the business of the insurer and take such steps towards removal of the
causes and conditions which have made such proceedings necessary as may be expedient.

6
Louisiana Revised Statutes 22:2004 is titled “Venue.” An arbitration clause has been characterized by this court as
a type of venue selection clause. See e.g. Hodges v. Reasonover, 2012-0043 (La. 7/2/12), 103 So.3d 1069, 1076 (“An
arbitration clause does not inherently limit or alter either party’s substantive rights; it simply provides for an alternative
venue for the resolution of disputes.”)

4

8

22:2004(A) is an express grant of authority for the Commissioner to bring this suit
in court, rather than arbitration.
This holding is consistent with the purpose and spirit of the RLCA. The
Commissioner is a protector of public interests, and the legislature designed the
statutory scheme to ensure the protection of such interests. Louisiana Revised
Statutes 22:2(A)(1) provides, in pertinent part: “Insurance is an industry affected
with the public interest and it is the purpose of this Code to regulate that industry in
all its phases. Pursuant to the authority contained in the Constitution of Louisiana,
the office of the commissioner of insurance is created. It shall be the duty of the
commissioner of insurance to administer the provisions of this Code.” The
Commissioner’s role is aptly described in LeBlanc v. Bernard, 554 So. 2d 1378,
1381 (La. App. 1 Cir. 1989), writ denied, 559 So. 2d 1357 (La. 1990):
The Commissioner of Insurance as rehabilitator or liquidator owes an
overriding duty to the people of the State of Louisiana. The raison
d'etre of his office is because the insurance industry is “affected with
the public interest.” La. R.S. 22:2. Any duties imposed upon that
office, therefore, must be performed with the public interest foremost
in mind. The Commissioner’s responsibilities as rehabilitator or
liquidator include, additionally, protection of the policyholders,
creditors, and the insurer itself. Republic of Texas Savings Assoc. v.
First Republic Life Ins. Co., 417 So. 2d 1251, 1254 (La. App. 1 Cir.)
writ denied, 422 So.2d 161 (La. 1982).
This court has previously held that defendant, as rehabilitator, “does not
stand precisely in the shoes of First Republic.” Id.
Also supportive of our interpretation is Louisiana Revised Statutes
22:2004(C), which provides: “If an action is filed in more than one venue, the court
shall consolidate all such cases into one court where venue is proper.” Both this
statutory requirement for consolidation and the Commissioner’s authority to enforce
contracts in the venue of his choice promote the efficient and cohesive management
of the affairs of insolvent insurers, which is a matter of substantial public interest.
The Commissioner urges that Louisiana Revised Statutes 22:257(F) vests
“exclusive jurisdiction” for this action in the Nineteenth Judicial District Court.
5

9

However, this statute applies only to the “takeover and liquidation of a health
maintenance organization.” The subject suit arises from the rehabilitation of the
LAHC, not its liquidation.7 Nevertheless, Louisiana Revised Statutes 22:257(F)
does support our view of the RLCA as a comprehensive statutory scheme facilitating
the Commissioner’s management of insolvent insurers. Specifically, the statute
aligns with Louisiana Revised Statutes 22:2009, which allows the Commissioner to
convert a rehabilitation proceeding to liquidation when he deems it necessary. Thus,
the Commissioner may choose the Nineteenth Judicial District Court to bring an
action as rehabilitator, then convert from rehabilitation to liquidation where the
Nineteenth Judicial District Court’s jurisdiction is mandatory. Louisiana Revised
Statutes 22:2004(C)’s use of “one court” likewise facilitates the transition between
these different types of receivership.
The ability of the Commissioner to seek to enjoin interference with
rehabilitation proceedings is also part of the statutory scheme and reinforces the
Commissioner’s authority to choose a court as the forum to proceed. Louisiana
Revised Statutes 22:2006 grants the court “jurisdiction over matters brought by . . .
the commissioner of insurance . . .to issue an injunction.” Louisiana Revised Statutes
22:2007(D) then provides, “The court having jurisdiction over a proceeding under
this Chapter [the RLCA] shall have the authority to issue such orders, including
injunctive relief, as appropriate, for the enforcement of this Section [delinquency
proceeding or any investigation related to the insolvency proceeding].” An arbitrator
is not typically empowered to issue injunctive relief. Horseshoe Entm't v. Lepinski,

7

As part of a comprehensive statutory scheme relating to the management of insolvent insurers, the legislature has
purposefully distinguished between “liquidation” and “rehabilitation.” Thus, Louisiana Revised Statutes 22:257(F)
does not directly apply to the commissioner as rehabilitator. This legislative distinction is evidenced in Louisiana
Revised Statutes 22:2008 (providing for the suspension of prescription when the commissioner seeks a rehabilitation
order, but interruption if he seeks an order of liquidation); Louisiana Revised Statutes 22:2009 (providing for the
commissioner of insurance to immediately proceed to conduct the business of the insurer as rehabilitator and also
providing for the conversion from rehabilitation to liquidation when necessary); Louisiana Revised Statutes 22:2010
(providing for the commissioner to proceed to liquidate the property, business, and affairs of the insurer.)

6

10

40,753 (La. App. 2 Cir. 3/8/06), 923 So. 2d 929, 936, writ denied, 2006-0792 (La.
6/2/06), 929 So. 2d 1259.
Both parties have argued extensively that the contract controls. Particularly,
they contend resolution of the arbitrability issue hinges on the parties’ contractual
intent relative to an apparent conflict between a New York choice of law provision
and the arbitration clause. However, to the extent the agreement seeks to alter a
statutory right granted to the Commissioner, the parties’ intent is not determinative.
Where the legislature, through positive law, empowers the Commissioner to bring
an action in court, private parties cannot contract to deprive him of that right. See
La. C.C. art. 1971 (parties are free to contract for any object that is lawful, possible,
and determined or determinable.) 8 The court in Brown v. Associated Ins.
Consultants, Inc., 97-1396 (La. App. 1 Cir. 6/29/98), 714 So. 2d 939, 942 noted:
This statutory scheme for the liquidation and/or rehabilitation of
insurers is comprehensive and exclusive in scope. . . .
Moreover, any attempt. . . to enjoin the Commissioner (through the
appointed liquidator) from performing his role as liquidator would
clearly violate the exclusivity of the rehabilitation scheme provided by
law.
Because Louisiana Revised Statutes 22:2004(A) grants the Commissioner the right
to choose the forum for his action, a private agreement depriving him of that right,
“would clearly violate the exclusivity of the rehabilitation scheme.” Brown, 714
So.2d 942. Consequently, the parties’ intent is not relevant and we pretermit any
analysis of the allegedly conflicting provisions in the agreement.

8

See also Louisiana Smoked Prod., Inc. v. Savoie's Sausage & Food Prod., Inc., 96-1716 (La. 7/1/97), 696 So. 2d
1373, 1380–81 (“In a free enterprise system, parties are free to contract except for those instances where the
government places restrictions for reasons of public policy. The state may legitimately restrict the parties’ right to
contract if the proposed bargain is found to . . . contravene some . . . matter of public policy.”) See Bernard v. Fireside
Commercial Life Ins. Co., 633 So. 2d 177, 185 (La. App. 1 Cir. 1993), (“Louisiana has enacted a statutory scheme
specifically designed for insurance insolvency, which takes precedence over general law to the extent that the general
law is inconsistent with the provisions or purpose of the comprehensive, statutory scheme.”) By statutorily addressing
insurance insolvency, general contract law is overridden to the extent it is inconsistent with the RLCA, or the purposes
behind it. Crist v. Benton Casing Serv., 572 So. 2d 99, 102 (La. App. 1 Cir. 1990), writ denied, 573 So. 2d 1143 (La.
1991).

7

11

Similarly, we find it unnecessary to address the doctrine of direct benefits
estoppel and its effect on the Commissioner as a non-signatory to the agreement.9
This jurisprudentially created type of estoppel is an equitable remedy. Courville, 218
So.3d at 148. Equitable remedies are only available in the absence of legislation and
custom. La.Civ.Code art. 4. Because an express grant of authority exists in favor of
the Commissioner, resort to equity is unwarranted. See Gulf Refining Co., 171 So.2d
846, 854 (1936).
Our holding that Louisiana law allows the Commissioner to decline binding
arbitration does not dispose of the issue entirely. We must now determine if the
FAA, the applicable federal arbitration law, preempts Louisiana law, thus
compelling arbitration. By operation of the Supremacy Clause in the United States
Constitution, we acknowledge the FAA preempts inconsistent state law. 9 U.S.C. §
1, et seq.; U.S. Const. art. VI, Clause 2. Louisiana Revised Statutes 22:2004(A) is
arguably inconsistent with the FAA, which favors arbitration.

However, the

Commissioner argues state law reverse preempts the FAA by virtue of the
McCarran-Ferguson Act.

McCarran-Ferguson exempts from federal preemption

state laws enacted “for the purpose of regulating the business of insurance.” 15 U.S.
§ 1012. Congress has mandated that “[t]he business of insurance, and every person
engaged therein, shall be subject to the laws of . . . States which relate to the
regulation . . . of such business.” Id. at 1012(a). No federal law “shall be construed
to invalidate, impair, or supersede any law enacted by any State for the purpose of
regulating the business of insurance . . . unless such Act specifically relates to the
business of insurance.” Id. at 1012(b).

9

Direct benefits estoppel prevents a non-signatory from escaping the effects of an arbitration clause when he
knowingly exploits and receives a benefit from the agreement containing the arbitration clause. See Courville v. Allied
Professionals Insurance Co., 2016-1354 (La. App. 1 Cir. 4/12/17), 218 So.3d 144, 148, n.3, writ denied, 2017-0783
(La. 10/27/17), 228 So.3d 1223.

8

12

Courts have adopted a three-part test to determine when a state law, through
application of McCarran-Ferguson, reverse preempts federal law: (1) when the
federal statute is not specifically related to the insurance business, (2) when the state
statute was enacted to regulate insurance, and (3) when application of the federal
statute would invalidate, impair, or supersede the state statute. Am. Bankers Ins. Co.
of Fla. v. Inman, 436 F.3d 490, 493 (5th Cir. 2006).
The FAA does not specifically relate to “the business of insurance.” Id. Thus,
the first test for reverse preemption is satisfied.
Next is whether Louisiana Revised Statutes 22:2004(A) was enacted “for the
purpose of regulating the business of insurance.” Id.

The Commissioner

persuasively argues Louisiana’s comprehensive statutory scheme for handling
insolvent insurers, including the right to choose the forum for actions brought by
him as rehabilitator, serves the purpose of regulating the business of insurance and
is within the scope of McCarran-Ferguson. See Munich Am. Reinsurance Co. v.
Crawford, 141 F.3d 585, 591 (5th Cir. 1998).
In Munich the court considered whether Oklahoma law governing insurance
company delinquency proceedings reverse preempted the FAA. Oklahoma, like
most states, enacted its insurance regulatory scheme under the “shield provided by
the McCarran-Ferguson Act.” Id., citing Harford Cas. Ins. Co. v. Corococan, 807
F.2d 38, 43 (2d Cir.1986).

Oklahoma courts, as the “primary expositors of

Oklahoma law and public policy, have expressly declared that Oklahoma’s Insurers
Liquidation Act is designed to protect the public in general, and policyholders of an
insolvent insurer in particular.” Id. at 592. The court ultimately held the provisions
of the insurance insolvency scheme were enacted for the purpose of regulating the

9

13

business of insurance and reverse preempted the FAA, thus exempting the Oklahoma
insurance commissioner from arbitration. 10
The Munich court relied heavily on Stephens v. American Int'l Ins. Co., 66
F.3d 41 (2d Cir.1995), which found an anti-arbitration provision in Kentucky’s
Insurance Rehabilitation and Liquidation Law was enacted to regulate the business
of insurance and was not preempted by the FAA. The Stephens court reasoned the
Kentucky liquidation scheme protects policyholders by “assuring that an insolvent
insurer will be liquidated in an orderly and predictable manner and the antiarbitration provision is simply one piece of that mechanism.” Stephens, 66 F.3d at
45.
Although not binding on us, we are persuaded by these federal court decisions.
While Munich and Stephens involved liquidation, not rehabilitation, the distinction
is immaterial when considering the overall statutory scheme, as both are legal
devices used by the Commissioner to manage insolvent insurers.

Similar to

Oklahoma and Kentucky, Louisiana’s RLCA was enacted for the purpose of
regulating the business of insurance. Louisiana Revised Statutes 22:2004(A), is part
of the RLCA.

La. R.S. 22:2001, et seq.

Section 2004(A) authorizes the

Commissioner to select the forum for “all actions under [the RLCA] brought by the
commissioner . . .as rehabilitator.” Section 2008 gives the Commissioner “title to
all property, contracts, and rights of action of the insurer.” Section 2009 mandates
that the Commissioner “proceed to conduct the business of the insurer.” This
statutory scheme for rehabilitation and liquidation of insurers is comprehensive and

10

The Munich court utilized a three-part test set forth in Union Labor Life Ins. Co. v. Pireno, 458 U.S. 119, 129, 102
S.Ct. 3002, 73 L.Ed.2d 647 (1982) to evaluate whether the Oklahoma law regulated the business of insurance: (1)
“whether the practice in question has the effect of transferring or spreading a policyholder’s risk;” (2) “whether the
practice is an integral part of the policy relationship between the insurer and the insured;” and (3) “whether the practice
is limited to entities within the insurance industry.” The court in Pierno noted that no single factor is determinative,
but examination of all the factors may lead to the conclusion that a state law regulates the “business of insurance.” Id.
The Munich court found Oklahoma’s comprehensive regulatory scheme sufficient to satisfy at least two of three
Pireno factors: “First, it is crucial to the relationship between the insurance company and its policyholders for both
parties to know that, in the event of insolvency, the insurance company will be liquidated in an organized fashion.”
Munich, 141 F.3d 585 (1998). Second, the court found the liquidation scheme limited, by its nature, to entities in the
insurance industry. “It does not apply to insolvent companies generally, but only to insolvent insurance companies.”
Id. The same factors are met relative to Louisiana’s comprehensive regulatory scheme.

10

14

exclusive in scope. Brown v. Associated Ins. Consultants, Inc., 97-1396 (La. App.
1 Cir. 6/29/98), 714 So. 2d 939, 942.

It balances the interests of policyholders,

creditors, and claimants. LeBlanc v. Bernard, 554 So. 2d at 1383–84. It was enacted
to regulate insurance “in the public interest.” La. R.S. 22:2(A)(1). Section 2004 is
part of a coherent policy to address that interest. Health Net, Inc. v. Wooley, 534
F.3d 487, 496 (5th Cir. 2008).
Milliman argues United States Treasury Dept. v. Fabe, 508 U.S. 491, 505,
113 S.Ct. 2202, 124 L.Ed. 2d 449 (1993) prohibits consideration of the insurance
statutory scheme as a whole when determining whether a specific statute was
enacted for the purpose of regulating the business of insurance. We disagree. The
Fabe court considered whether a federal priority statute was superseded by a
conflicting state priority statute, where the latter was part of a larger statutory scheme
enacted to regulate insolvent insurers. The Fabe court observed that an individual
statute can reverse preempt federal law to the extent the specific statute regulates
policyholder interests. However, the court found the provisions that did not directly
affect policyholder interests were not enacted for the purpose of regulating the
business of insurance and, thus, had no reverse preemptive effect. The Munich court
rejected an expansive application of the Fabe holding, finding “the court stopped
short of directing that [a parsing of statutes] approach be taken in every case.”
Munich, 141 F.3d 592. It continued:
This uncertainty need not concern us today, however, because if we are
required to parse [Oklahoma Insurance regulation law], the specific
provisions of the statute at issue here —vesting exclusive original
jurisdiction of delinquency proceedings in the Oklahoma state court
and authorizing the court to enjoin any action interfering with the
delinquency proceedings—are laws enacted clearly for the purpose of
regulating the business of insurance. These provisions give the state
court the power to decide all issues relating to disposition of an
insolvent insurance company’s assets, including whether any given
property is part of the insolvent estate in the first place.
Id.

11

15

Louisiana, like Oklahoma, adopted a comprehensive scheme to regulate
insolvent insurers, including granting the Commissioner, as rehabilitator, the
authority to choose which forum to bring an action. The policy reasons for this grant
of discretion mirror those of Oklahoma: “the orderly adjudication of claims;” the
avoidance of “unnecessary and wasteful dissipation of the insolvent company’s
funds” that would occur if the receiver had to litigate in different forums nationwide;
the elimination of “the risk of conflicting rulings, piecemeal litigation of claims, and
unequal treatment of claimants.” Munich, 141 F.3d at 593. While each of these
concerns alone may not justify avoiding the arbitration clause, collectively they
support our holding that the venue selection provision in Section 2004 was enacted
for the purpose of regulating the business of insurance.
Last, reverse preemption does not apply unless the FAA acts to “invalidate,
supersede, or impair” the RLCA, particularly the venue provision.

Forcing

arbitration upon the Commissioner conflicts with the Louisiana law authorizing him
to choose which forum to proceed in as rehabilitator. This conflict sufficiently
impairs the Commissioner’s rights under Section 2004 to trigger McCarranFerguson’s reverse preemption effect.
CONCLUSION
For the reasons stated herein, we find the Louisiana Rehabilitation,
Liquidation, and Conservation Act, specifically Louisiana Revised Statutes
22:2004(A), prevents the Commissioner from being compelled to arbitration. We
reverse the judgment of the court of appeal and remand for proceedings consistent
with this opinion.
REVERSED AND REMANDED.

12

16

04/27/20
SUPREME COURT OF LOUISIANA
NO. 2019-C-00514
JAMES J. DONELON, COMMISSIONER OF INSURANCE
FOR THE STATE OF LOUISIANA IN HIS CAPACITY AS
REHABILITATOR OF LOUISIANA HEALTH COOPERATIVE, INC.
VERSUS
TERRY S. SHILLING, GEORGE G. CROMER, WARNER L. THOMAS,
IV, WILLIAM A. OLIVER, CHARLES D. CALVI, PATRICK C. POWERS,
CGI TECHNOLOGIES AND SOLUTIONS, INC., GROUP RESOURCES
INCORPORATED, BEAM PARTNERS, LLC, MILLIMAN, INC., BUCK
CONSULTANTS, LLC, AND TRAVELERS CASUALTY AND SURETY
COMPANY OF AMERICA

ON WRIT OF CERTIORARI TO THE COURT OF APPEAL, FIRST CIRCUIT,
PARISH OF EAST BATON ROUGE

WEIMER, J.,concurring.
The statute central to this case, La. R.S. 22:2004(A), provides that an “action
by the commissioner of insurance, in that capacity, or as conservator, rehabilitator,
or liquidator may be brought in the Nineteenth Judicial District Court for the
parish of East Baton Rouge or any court where venue is proper under any other
provision of law.” (Emphasis added.) Arbitration is not mentioned in the statute.
Accordingly, I believe the commissioner is not statutorily authorized to elect
arbitration, but is limited to litigation, in court, as described in La. R.S. 22:2004(A).
Thus, I respectfully concur; I join the majority opinion in all other respects.

17

EXHIBIT B

18

Supreme Court
STATE OF LOUISIANA

New Orleans
CHIEF JUSTICE
BERNETTE J. JOHNSON
JUSTICES
WILLIAM J. CRAIN
SCOTT J. CRICHTON
JAMES T. GENOVESE
MARCUS R. CLARK
JEFFERSON D. HUGHES III
JOHN L. WEIMER

Seventh District

JOHN TARLTON OLIVIER
CLERK OF COURT

First District
Second District
Third District
Fourth District
Fifth District
Sixth District

400 Royal St., Suite 4200
NEW ORLEANS, LA 70130-8102
TELEPHONE (504) 310-2300
HOME PAGE http://www.lasc.org

May 18, 2020
Harry Alston Johnson, III,
II City Plaza
400 Convention St Ste 1100
Baton Rouge, LA 70802Harry Allan Rosenberg,
Canal Place
365 Canal St Ste 2000
New Orleans, LA 70130-6534
Re: JAMES J. DONELON,
COMMISSIONER OF INSURANCE
FOR THE STATE OF LOUISIANA, IN
HIS CAPACITY AS
REHABILITATOR OF LOUISIANA
HEALTH COOPERATIVE, INC. VS.
TERRY S. SHILLING, ET AL.
2019-C-00514
Dear Counsel:
This is to advise that the court took the following action on your Motion for Stay filed
in the above entitled matter.
Motion to stay denied.
With kindest regards, I remain,

19
Very truly yours,
Ryan Chan
Deputy Clerk
RC: RC
ccs: All Counsel
Court of Appeal, First Circuit: 2017 CW 1545
19th Judicial District Court: 651,069 - JDC:19 Div:F

20

EXHIBIT C

21

Office Of The Clerk

Court of Appeal, First Circuit
State of Louisiana

www.la- feca. org

Rodd Naquin

Notice of Judgment and Disposition

February 28, 2019
Docket Number:

2017 - CW - 1545

James L. Donelon, Commissioner of Insurance for the State

of Louisiana, in his capacity as Rehabilitator of Louisiana
Health Cooperative, Inc.
versus

Terry S. Shilling, George G. Cromer, Warner L. Thomas, IV,
William A. Oliver, Charles D. Calvi, Patrick C. Powers, CGI

Technologies and Solutions, Inc., Group Resources
Incorporated, Beam Partners, LLC, Milliman, Inc., Buck

Consultants, LLC and Travelers Casualty and Surety Company
of America

Post Office Box 4408

Baton Rouge, LA

Clerk of Court

70821- 4408
225) 382- 3000

22
TO:

Grant J. Guillot

H. Alston Johnson III

P. O. Box 4425

PHELPS DUNBAR

Baton Rouge, LA 70821

400 Convention Street, Ste. 1

grant.guillot@arlaw.com

Baton Rouge, LA 70802
johnsona@phelps. com

Harry Allan Rosenberg

James Robert Wooley

PHELPS DUNBAR

450 Laurel St., Ste. 1900

365 Canal Street, Ste. 2000

Baton Rouge, LA 70801

New Orleans, LA

70130- 6534

harry. rosenberg@phelps. corr
Kellen J. Mathews

V. Thomas Clark Jr.

450 Laurel Street

ADAMS & REESE, LLP

Suite 1900

450 Laurel Street

Baton Rouge, LA 70801

Suite 1900

kellen. mathews@arlaw.com

Baton Rouge, LA 70801
tom. clark@arlaw. com

A' Dair Flynt

Anton L. Hasenkampf

One Shell Square

1100 Poydras St., Ste. 1700

701 Poydras St., Ste. 5000

New Orleans, LA 70163

New Orleans, LA

ahasenkampf@leakeanderss

70139- 5099
aflynt@liskow. com

Catherine F. Giarrusso

Charles A. Anzelmo

909 Poydras Street

ANZELMO AND CREIGHTOI

Suite 2400

1900 N. 18th St., Ste. 105

New Orleans, LA 70112

Monroe, LA 71201

Darrel J. Papillion

David A. Thomas

12345 Perkins Road, Bld. 1

MOORE, WALTERS, THOMI

Baton Rouge, LA 70810

12345 Perkins Road; Buildin(
Baton Rouge, LA 70808

Douglas J. Cochran

Edward J. Walters Jr.

STONE PIGMAN WALTHIEF

MOORE, WALTERS & THOI)

One American Place, Ste. 11

12345 Perkins Rd., Building

301 Main Street

Baton Rouge, LA 70810

Baton Rouge, LA 70825
dcochran@stonepigman. com

George D. Fagan

Harry J. Philips Jr.

1100 Poydras St., Ste. 1700

TAYLOR, PORTER, BROOK

New Orleans, LA 70163

450 Laurel St., 8th Floor ( 70F

gfagan@leakeandersson. con

P. O. Drawer 2471
Baton Rouge, LA 708212471

skip. philips@taylorporter. conJames Alcee Brown

James G. Albertine III

LISKOW & LEWIS

365 Canal Street, Ste. 1710

701 Poydras St.

New Orleans, LA 70130

50 Floor, One Shell Square

jalbertine@shmrlaw.com

New Orleans, LA 70139

Jamie D. Rhymes

Jennifer W. Moroux

LISKOW & LEWIS

12345 Perkins Road

522 Harding Street

Bldg One

Post Office Box 52008

Baton Rouge, LA 70810

Lafayette, LA 70505

jmoroux@lawbr.jmoroux@lawbr. netnet
jmoroux@lawbr.net

John William Hite III Esq.

Joseph E. Cullens Jr.

365 Canal Street

Walters, Papillion, Thomas, C

One Canal Place, Suite 1710

12345 Perkins Road, Buildinc

New Orleans, LA 70130

Baton Rouge, LA 70810
cullens@lawbr. net

Judy Y. Barrasso
BARRASSO, USDIN, KUPPE
909 Poydras Street
Suite 2400
New Orleans, LA 70112
jbarrasso@barrassousdin. coi

23
Justin P. Lemaire

Karl Howard Schmid

909 Poydras St., Ste. 3150

400 Poydras Street

New Orleans, LA 70112

Suite 2600

jlemaire@stonepigman. com

New Orleans, LA 70130
kschmid@degan. com

Michael A. Balascio

Michael W. McKay

BARRASSO, USDIN, KUPPE

One American Place, Ste. 11

909 Poydras Street, 24th Floi

301 Main Street

New Orleans, LA 70112

Baton Rouge, LA 70825

Mirais M. Holden

Robert Wylie Barton

One Shell Square

TAYLOR, PORTER, BROOK

701 Poydras St., Ste. 5000

P. 0. Box 2471

New Orleans, LA

Baton Rouge, LA 70821

70139- 5099

bob. barton@taylorporter. com

Ryan K. French

Seth Andrew Schmeeckle

450 Laurel St., 8th Floor ( 70E

601 Poydras Street, Ste. 277

P. O. Box 2471

New Orleans, LA 70130

Baton Rouge, LA

sschmeeckle@lawla. com

70821- 2471

ryan. french @taylorporter. corr

Sidney W. Degan III

Tina L. Kappen

5555 Hilton Avenue

601 Poydras St., Ste. 2775

Suite 620

New Orleans, LA 70130

Baton Rouge, LA 70808

tkappen@lawla. com

sdegan@degan. com

William Brett Mason

Hon. Timothy E. Kelley

STONE, PIGMAN, WALTER,

300 North Boulevard

One American Place, Ste. 11

Suite 10301

301 Main Street

Baton Rouge, LA 70801

Baton Rouge, LA 708250013

bmason@stonepigman. com

In accordance with Local Rule 6 of the Court of Appeal, First Circuit, I hereby certify that this notice of judgment and
disposition and the attached disposition were transmitted this date to the trial judge or equivalent, all counsel of record,

and all parties not represented by counsel.

OD

IN

CLERK OF COURT

24

STATE OF LOUISIANA

COURT OF APPEAL
FIRST CIRCUIT

2017 CW 1545

JAMES J. DONELON, COMMISSIONER OF INSURANCE FOR THE STATE
OF LOUISIANA, IN HIS CAPACITY AS REHABILITATOR OF LOUISIANA
HEALTH COOPERATIVE, INC.
VERSUS

TERRY S. SHILLING, GEORGE G. CROMER, WARNER L. THOMAS, IV,
WILLIAM A. OLIVER, CHARLES D. CALVI, PATRICK C. POWERS, CGI

TECHNOLOGIES AND SOLUTIONS, INC., GROUP RESOURCES

NqN

INCORPORATED, BEAM PARTNERS, LLC, MILLIMAN, INC., BUCK

CONSULTANTS, LLC, AND TRAVELERS CASUALTY AND SURETY
COMPANY OF AMERICA

f6 ---

Judgment Rendered:

FEB 2 8 2019

On review from the Nineteenth Judicial District Court
Parish of East Baton Rouge
State of Louisiana
Case No. 651, 069

The Honorable Timothy E. Kelley

V. Thomas Clark, Jr.

Attorneys for Applicant -Relator

Grant J. Guillot

Milliman, Inc.

Baton Rouge, Louisiana

Harry A. Rosenberg
New Orleans, Louisiana
H. Alston Johnson

Baton Rouge, Louisiana
J. E. Cullens, Jr.

Attorneys for Respondent,

Edward J. Walters, Jr.

James J. Donelon, Commissioner of

Darrel J. Papillion

Insurance for the State of Louisiana,

David Abboud Thomas

in His Capacity as Rehabilitator of

Jennifer Wise Moroux

Louisiana Health Cooperative, Inc.,

Baton Rouge, Louisiana

through His Duly Appointed Receiver,
Billy Bostick

BEFORE:

HIGGINBOTHAM, HOLDRIDGE, and PENZATO, JJ.

25

HOLDRIDGE, J.

In this writ application,

applicant,

Milliman, Inc. (" Milliman',

challenges

the ruling of the trial court, which overruled Milliman' s Declinatory Exception

For the following

raising the objection of Lack of Subject Matter Jurisdiction.'

reasons, we reverse the ruling of the trial court and dismiss the claims of James
J. Donelon, Commissioner of Insurance for the State of Louisiana, through his

duly appointed Receiver, Billy Bostick, against Milliman, without prejudice.
FACTS AND PROCEDURAL HISTORY

This matter arises from the insolvency and the rehabilitation of Louisiana
Health

Cooperative,

Agreement ("

Inc. (" LAHC'.

LAHC

executed

Consulting

a

Agreement's with Milliman for actuarial services.

Services

The Agreement

states, in pertinent part, as follows:
This Agreement is entered

into between [ Milliman]

and [

LAHC]

Company) as of August 4, 2011. Company has engaged Milliman to
perform consulting services as described in the letter dated August
41 2011 and attached hereto. The parties agree that these terms
and conditions will apply to all current and subsequent engagements

of Milliman by Company unless specifically disclaimed in writing by
both

parties

consideration

prior

for

to

the

Milliman

beginning
agreeing

of

to

the

engagement.

perform

these

In

services,

Company agrees as follows.
4.

DISPUTES.

In the event of any dispute arising out of or
relating to the engagement of Milliman by Company, the parties
agree that the dispute will be resolved by final and binding
arbitration under the Commercial Arbitration Rules of the American
Arbitration Association. ...
5.

CHOICE

OF

LAW.

The construction,

interpretation,

and

enforcement of this Agreement shall be governed by the substantive
contract law of the State of New York without regard to its conflict
of laws provisions.

In the event any provision of this agreement is

unenforceable as a matter of law, the remaining provisions will stay
in full force and effect.

1 The companion case involving the Declinatory Exception raising the objection of Improper
Venue and writ application filed by Buck Consultants,

decided by this Court under a separate ruling.
2

LLC, Docket No. 2017 CW 1483, is

26

Representatives of Milliman and LAHC signed the Agreement on August 4, 2011,

and August 15, 2011, respectively.
A Proposal for Actuarial Services (" Engagement Letter') from Milliman to
Beam Partners, dated August 4, 2011, was attached to the Agreement.

The

Engagement Letter outlined that Beam Partners was working with LAHC, which is
sponsored by Ochsner Health System, to investigate the creation of a Consumer
Operated and Oriented Plan (" CO- OP') in Louisiana.

Beam Partners, on behalf of

LAHC, had asked Milliman to provide a proposal for actuarial support of the

proposed CO- OP, with initial support including assistance with a feasibility study
and LAHC' s loan application in response to Funding Opportunity Announcement
No. 00 -COO -11- 001, CFDA 93. 545 released from the U. S. Department of Health
and

Human Services on July 28,

2011.

The Engagement Letter provided

Milliman' s work plan as well as timing, staffing, and professional fees.
It is alleged that LAHC became registered with the Louisiana Secretary of
State on September 12, 2011, and applied for and received loans from the U. S.

Department of Health and Human Services, Centers for Medicare and Medicaid
Services, in 2012.

However, it is undisputed that, by July 2015,

LAHC stopped

doing business.
On September 21, 2015,

in response to a verified petition and testimony

on behalf of Caroline Brock, Deputy Commissioner of Financial Solvency for the
Louisiana Department of Insurance and Billy Bostick,
Rehabilitation and

Injunctive

confirming James J.
Louisiana ("

Donelon,

a Permanent Order of

Relief ( the " Rehabilitation

Order')

was

signed,

Commissioner of Insurance for the State of

the Commissioner' s as Rehabilitator of LAHC and Billy Bostick as

Receiver of LAHC.

The Rehabilitation Order further states, in pertinent part, as

follows:

T] he requirements for rehabilitation under the provisions of La. R. S.
22: 2001, et seq., have been met ...
3

LAHC shall be and hereby is

27

placed into rehabilitation under the direction and control of the
Commissioner

IT IS FURTHER ORDERED, ADJUDGED AND DECREED that ... any

and all persons and entities shall be and hereby are permanently
enjoined from obtaining preferences, judgments, attachments or
other like liens or the making of any levy against LAHC, its property
and assets

IT IS FURTHER ORDERED, ADJUDGED AND DECREED that the

Rehabilitator shall be and hereby is entitled to the right to enforce or
contract performance by any party who had contracted

cancel ...

with LAHC.

IT IS FURTHER ORDERED, ADJUDGED AND DECREED that LAHC

providers and contractors are required to abide by the terms of their
contracts with LAHC

IT IS

FURTHER ORDERED,

ADJUDGED AND

Rehabilitator and Receiver of LAHC ...

DECREED that the

shall be and hereby are

allowed and authorized to ... [ c] ommence and
actions

necessary,

wherever

necessary,

maintain all legal
for

the

proper

administration of this rehabilitation proceeding
IT IS

FURTHER ORDERED,

contracts

between

LAHC

ADJUDGED

and

any

and

AND
all

DECREED that all
persons

or

entities

providing services to LAHC ... shall remain in full force and effect
unless canceled by the Receiver, until further order of this Court.
On August 31, 2016, the Commissioner, as Rehabilitator of LAHC, through

his duly appointed Receiver, Billy Bostick, filed a Petition for Damages and Jury
Demand,

in a separate matter from the rehabilitation proceeding,

claims of breach of fiduciary duty, breach of contract,

negligence,

asserting
and

gross

negligence against multiple defendants and seeking damages in connection with
LAHC' s failure.
Supplemental,

Milliman was named as a defendant in the Commissioner' s First

Amending and Restated Petition for Damages and Request for

Jury Trial filed on November 29, 2016.
The Commissioner alleged professional negligence, breach of contract, and
negligent misrepresentation against Milliman.

The Commissioner stated that

Milliman was engaged via the Engagement Letter to provide "

actuarial support"

for LAHC including the production of a feasibility report and loan application.
4

28

The Commissioner further alleged that Milliman was engaged

via a

separate

engagement letter dated November 13, 2012, to develop 2014 premium rates in
Louisiana. Z
As to the professional

negligence and breach of contract claims, the

Commissioner alleged the following: (

1)

the feasibility study was prepared using

unrealistic and unreasonable assumption sets failing to consider the possibility of
adverse enrollment and/ or medical loss ratio scenarios; ( 2) Milliman conditioned
its

payment

upon

LAHC being awarded a

loan,

independence and breaching its duty to LAHC; (

3)

compromising its actuarial

Milliman' s feasibility study and

pro forma reports were unreliable, inaccurate, and not the result of careful
professional analysis; (

4)

Milliman owed a duty to LAHC to exercise reasonable

care in accordance with the professional standards for actuaries; ( 5) Milliman

provided actuarial memorandums for 2014 rate filings utilizing unreasonable
assumptions,

grossly underestimating the level of non -claim expenses in 2014,

and providing no basis for assumptions made therein; (

6) Milliman breached its

duty to LAHC by failing to discharge its duties with reasonable care, failing to act
in accordance with the professional standards applicable to actuaries, failing to
produce an accurate and reliable feasibility study, failing to set premium rates
that were accurate and reliable, and failing to exercise the reasonable judgment
expected of professional actuaries under like circumstances;

failure to exercise reasonable care,

and (

7) Milliman' s

failure to act in accordance with the

professional standards applicable to actuaries and breach of contract were the

legal causes of all or substantially all of LAHC' s damages.
further

alleged

that

Milliman' s

advice

and

reports

to

The Commissioner
LAHC

negligently

misrepresented the actual funding needs and premium rates of LAHC,

and

Milliman had a duty to provide accurate and up- to-date information to LAHC that
2 A copy of the November 13, 2012 Engagement Letter has not been provided to this Court and
is not in evidence.
5

29

Milliman knew or should have known LAHC would rely on in making its decision
concerning premium amounts.

In response to the First Supplemental, Amending and Restated Petition for

Damages, Milliman filed a Declinatory Exception raising the objection of Lack of
Subject Matter Jurisdiction,

must be arbitrated,

asserting that the Commissioner' s claims against it

pursuant to the arbitration provision

in the Agreement.

Milliman requested that the Commissioner' s claims against it be dismissed, with

Attached to Milliman' s exception was a copy of the Agreement and

prejudice.

the Engagement Letter.

The Commissioner opposed the exception arguing, in pertinent part,

as

follows: ( 1) the Rehabilitation, Liquidation, Conservation Act, La. R. S. 22: 2001 et
seg. ("

the RLC Act's of the Louisiana Insurance Code is comprehensive and

exclusive in scope, and La. R. S. 22: 257( F) gives the Nineteenth Judicial District
Court exclusive jurisdiction of this matter; ( 2)
rehabilitation

proceeding

in

violation

of

the

arbitration interferes with the
Rehabilitation

Order; (

3)

the

Commissioner did not sign the Agreement and is not bound by the arbitration
provision; (

4) Milliman does not cite or distinguish Ohio Supreme Court's decision

in Taylor v. Ernst &
N. E. 2d 1203; ( 5)

Young, L. L. P., 2011 -Ohio -5262, 130 Ohio St. 3d 411, 958

the Commissioner does not stand precisely in the shoes of the

insolvent insurer because he acts as an officer of the State and owes an

overriding

duty

to

the

people

of

the

State

of

Louisiana;

and (

6)

the

Commissioner' s claims do not arise from the Engagement Letter because the

Commissioner is not seeking a declaration of Milliman' s obligations under the
Engagement Letter and the Commissioner' s allegations against Milliman do not

require the court to interpret the Engagement Letter to determine Milliman' s
obligations.

Attached to the Commissioner' s opposition was a copy of the First

0

30

Supplemental,

Amending

and

Restated

Petition

for

Damages

and

the

as follows: ( 1)

the

Rehabilitation Order.

Milliman filed a reply arguing,

in

pertinent

part,

Commissioner is vested with title to all contracts of LAHC, pursuant to La. R. S.
22: 2008( A), and no provision of the RLC Act vests the Commissioner with
greater rights than those LAHC held; ( 2) La. R. S. 22: 257( F),

which gives the

Nineteenth Judicial District Court exclusive jurisdiction over suits arising from the
takeover and liquidation of a health maintenance organization,

does not apply

herein because LAHC is not in liquidation; ( 3) enforcement of the arbitration

provision does not violate the Rehabilitation Order; ( 4) the Commissioner is
bound to the arbitration provision,

despite being a non -signatory,

because the

Commissioner has sued Milliman for breach of the Agreement; ( 5) the Ohio

Supreme Court's decision in Taylor is not binding on this Court and is factually
distinguishable; ( 6) the Commissioner stands in the shoes of LAHC for purposes

of exercising the rights and being obligated by the restrictions of the Agreement;
and (

7) the Commissioner's claims against Milliman arise out of the Agreement

because the Engagement Letter was incorporated into the Agreement and the

claims against Milliman arise out of the contractual relationship between LAHC
and Milliman.

A hearing on the Declinatory Exception raising the objection of Lack of
Subject Matter Jurisdiction

was held on August 25,

2017.

Copies

of the

Agreement, the Engagement Letter and the Rehabilitation Order were introduced

into evidence at the hearing.
The trial court denied the exception.
seeking

supervisory

review

of

the

trial

Milliman filed a writ application,
court's

judgment

that

denied

its

Declinatory Exception raising the objection of Lack of Subject Matter Jurisdiction

31

and asking that the trial court's judgment be reversed.

We granted certiorari

and stayed the trial court proceeding.
ERROR

Milliman argues that the trial court erroneously denied its Declinatory

Exception raising the objection of Lack of Subject Matter Jurisdiction, where the
trial court found that the Commissioner' s claims against Milliman must be heard
in the Nineteenth Judicial District Court rather than in arbitration, in violation of
the language of the Rehabilitation Order, the Louisiana Insurance Code, the

Louisiana Binding Arbitration Law and Federal Arbitration Act, and controlling
jurisprudence of this Court and the U. S. Supreme Court.
STANDARD OF REVIEW

Milliman filed a Declinatory Exception raising the objection of Lack of
Subject Matter Jurisdiction, arguing that the Commissioner' s claims should be

dismissed with prejudice because the trial court does not have subject matter
jurisdiction in light of the arbitration provision in the Agreement. Subject matter

jurisdiction is the legal power and authority of a court to hear and determine a
particular class of actions or proceedings, based upon the object of the demand,

the amount in dispute, or the value of the right asserted. La. Code Civ. P. art. 2.

A judgment rendered by a court which has no jurisdiction over the subject
matter of the action or proceeding is void. See La. Code Civ.
925( C).

App.

3/ 8/ 13),

arts.

3 and

A trial court is precluded from exercising jurisdiction once arbitration has

commenced.

La.

P.

Williams v. International Offshore Services, LLC, 2011- 1240

1 Cir.

12/ 7/ 12),

109 So. 3d 367.

106 So. 3d 212, 217,

writ denied, 2013- 0259 ( La.

Furthermore, subject matter jurisdiction cannot be

waived or conferred by the consent of the parties. Id. However, arbitration has
not yet commenced in this matter, and the trial court has not yet been divested
of subject matter jurisdiction.

Moreover, the arbitration provision is powerless to

0

32

waive or confer subject matter jurisdiction.

Therefore, an exception of lack of

subject matter jurisdiction is not a proper procedural vehicle to raise arbitration.
However, '"[

justice."

e] very pleading shall be so construed as to do substantial

La. Code Civ. P. art. 865.

In this regard, an exception is treated as

what it actually is, not as what it is entitled. Smith v. Smith, 341 So. 2d 1147,
1148 (

App.

La. App. 1 Cir. 1976) ( citing Jackson v. Dickens, 236 So. 2d 81,

1 Cir. 1970)).

83 ( La.

The defense that a plaintiff is not entitled to judicial relief

because of a valid agreement to submit claims to arbitration may be raised by

the dilatory exception of prematurity.

Green v. Regions Bank, 2013- 0771 ( La.

App. 1 Cir. 3/ 19/ 14), 2014 WL 3555820, * 2 (

unpublished) (

citing Cook v. AAA

Worldwide Travel Agency, 360 So. 2d 839, 841 ( La. 1978); O' Neal v. Total

Car Franchising Corp.,
Therefore,

44, 793 (

La. App. 2 Cir. 12/ 16/ 09), 27 So. 3d 317, 319).

this Court will consider Milliman' s Declinatory Exception raising the

objection of Lack of Subject Matter Jurisdiction as a Dilatory Exception raising the
objection of Prematurity, which properly raises arbitration.
Louisiana Code of Civil Procedure article 926( A)( 1)

provides for the dilatory

exception raising the objection of prematurity. Such an objection is intended to
retard the progress of the action rather than defeat it. La. Code Civ. P. art. 923.
A suit is premature if it is brought before the right to enforce the claim sued on

has accrued. La. Code Civ. P. art. 423.

Prematurity is determined by the facts existing at the time suit is filed.
Houghton v.

Cir.

7/ 16/ 03),

Our Lady of the Lake Hospital, Inc., 2003- 0135 ( La. App.
859

So. 2d

103,

106 (

citing Hidalgo v.

Wilson

1

Certified

Express, Inc., 94- 1322 ( La. App. 1 Cir. 5/ 14/ 96), 676 So. 2d 114, 116; Allied
Signal, Inc. v. Jackson, 96- 0138 (
n. 9,

La. App. 1 Cir. 2/ 14/ 97),

writ denied, 97- 0660 ( La. 4/ 25/ 97), 692 So. 2d 1091).

691 So. 2d 150, 157

Evidence may be

introduced to support or controvert the exception, when the grounds do not

9

33

appear from the petition. La. Code Civ. P. art. 930. The objection of prematurity
raises the issue of whether the judicial cause of action has yet come into

existence because some prerequisite condition has not been fulfilled. Bridges v.
Smith, 2001- 2166, (

La. App. 1 Cir. 9/ 27/ 02), 832 So. 2d 307,

310, writ denied,

2002- 2951 ( La. 2/ 14/ 03), 836 So. 2d 121. The objection contemplates that the

action was brought prior to some procedure or assigned time, and is usually
utilized in cases where the applicable law or contract has provided a procedure

for one aggrieved of a decision to seek relief before resorting to judicial action.
Plaisance v. Davis, 2003- 0767 (

La. App. 1 Cir. 11/ 7/ 03), 868 So. 2d 711, 716,

writ denied, 2003- 3362 ( La. 2/ 13/ 04), 867 So. 2d 699; Harris v. Metropolitan

Life Insurance Co., 2009- 34 ( La. App. 1 Cir. 2/ 5/ 10), 35 So. 3d 266, 274.

An

exception of prematurity raising a question of law is subject to a de novo
standard of review on appeal.

App.

1

Cir.

5/ 24/ 12),

Bridges v. Citimortgage, Inc., 2011- 1508 ( La.

2012 WL

1922457, *

1,

writ denied, 2012- 1739 ( La.

11/ 2/ 12), 99 So. 3d 673 ( citing La. Code Civ. P. art. 926; Bridges, 832 So. 2d at
310).

The facts are not in dispute with respect to this writ application. The issue

before us is whether the trial court correctly interpreted and applied the law in
denying the exception and refusing to enforce the arbitration provision.

This is a

question of law subject to a de novo standard of review.

Appellate review of questions of law is simply a review of whether the trial
court was legally correct or legally incorrect. Bridges, 832 So. 2d at 310 ( citing

City of Baker School Board v. East Baton Rouge Parish School Board,
99- 2505 ( La.

App.

1 Cir. 2/ 18/ 00), 754 So. 2d 291, 292).

On legal issues, the

appellate court gives no special weight to the findings of the trial court, but

exercises its constitutional duty to review questions of law and renders judgment
on the record.

Bridges, 832 So. 2d at 310 (

10

citing Northwest Louisiana

34

Production Credit Association v. State, Department of Revenue and
Taxation, 98- 1995 (

La. App. 1 Cir. 11/ 5/ 99), 746 So. 2d 280, 282.

When the issue of failure to arbitrate is raised by the dilatory exception
raising the objection of prematurity, the defendant pleading the exception has

the burden of showing the existence of a valid contract to arbitrate, by reason of
which the judicial action is premature.

Green, 2014 WL 3555820 at * 2 ( citing

Cook, 360 So. 2d at 841; O' Neal, 27 So. 3d at 319).

If the dilatory exception of

prematurity is sustained, the premature action shall be dismissed. Green, 2014
WL 3555820 at * 2 (

citing La. Code Civ. P. art 933).
DISCUSSION

The positive law of Louisiana favors arbitration.

Mgmt. Corp., 2004- 2804 (

La. 6/ 29/ 05), 908 So. 2d 1,

Aguillard v. Auction

7 superseded by statute

on other grounds, as stated in Arkel Constructors, Inc.
Meric, Architects, L. L. C., 2006- 1950 (
458- 59.

Duplantier &

La. App. 1 Cir. 7/ 25/ 07), 965 So. 2d 455,

Louisiana Revised Statutes 9: 4201 of the Louisiana Binding Arbitration

Law (" LBAL'),

A

v.

specifically states as follows:
in

contract

to

settle

by arbitration a
controversy thereafter arising out of the contract, or out of the
refusal to perform the whole or any part thereof, or an agreement in
writing between two or more persons to submit to arbitration any
controversy existing between them at the time of the agreement to
provision

any

written

submit, shall be valid, irrevocable, and enforceable, save upon such

grounds as exist at law or in equity for the revocation of any
contract.

Such favorable treatment echoes the Federal Arbitration Act (" FAX),

U. S. C. § 1, etseq. Aguillard, 908 So. 2d at 7. Section 2 of the FAA provides:
A

written

provision

in

any

maritime

transaction

or

a

contract

evidencing a transaction involving commerce to settle by arbitration
a controversy thereafter arising out of such contract or transaction,
or the refusal to perform the whole or any part thereof, or an
agreement in writing to submit to arbitration an existing controversy

arising out of such a contract, transaction, or refusal, shall be valid,
irrevocable, and enforceable, save upon such grounds as exist at law

or in equity for the revocation of any contract.
11

9

35

The Louisiana Supreme Court in Aguillard adopted the liberal federal policy
favoring arbitration agreements, and a Louisiana presumption of arbitrability now
exists with regard to the enforceability of arbitration agreements.

Hospitality, LLC v. Choice Hotels International,

See Vishal

Inc., 2004- 0568 (

La. App.

1 Cir. 6/ 28/ 06), 939 So. 2d 414, 416, writ denied, 2006- 2517 ( La. 1/ 12/ 07), 948
So. 2d 152 ( citing Aguillard, 908 So. 2d at 3- 4).

Louisiana courts look to federal

law in interpreting the LBAL, because it is virtually identical to the FAA.

Snyder

v. Belmont Homes, Inc., 2004- 0445 ( La. App. 1 Cir. 2/ 16/ 05), 899 So. 2d 57,
60,

writ denied, 2005- 1075 ( La. 6/ 17/ 05),

904 So. 2d 699.

In this regard,

determinations regarding the viability and scope of arbitration clauses would be
the same under either law, and is consistent with the federal jurisprudence

interpreting the FAA which may be considered in construing the LBAL.
v.

Law Offices of Anthony G.

Buzbee, P. C.,

Lafleur

2006- 0466 ( La. App. 1 Cir.

3/ 23/ 07), 960 So. 2d 105, 111, called into doubt on other grounds, as stated in

Arkel Constructors, Inc., 965 So. 2d at 459 ( citations omitted).

Even when the scope of an arbitration clause is fairly debatable or
reasonably in doubt, the court should decide the question of construction in favor
of arbitration.

Aguillard, 908 So. 2d at 18.

The weight of this presumption is

heavy and arbitration should not be denied unless it can be said with positive
assurance that an arbitration clause is not susceptible of an interpretation that

could cover the dispute at issue.

Id.

Therefore, even if some legitimate doubt

could be hypothesized, the Louisiana Supreme Court requires resolution of the
doubt in favor of arbitration. Id.

A two-step analysis is applied to determine whether a party is required to
arbitrate. Snyder, 899 So. 2d at 61- 62 ( citing Fleetwood Enterprises, Inc. v.

Gaskamp, 280 F. 3d 1069,

1073 ( 5th Cir. 2002), opinion supplemented on denial

of rehearing, 303 F. 3d 570 ( 5th

Cir. 2002)).
12

The first inquiry is whether the party

36

has agreed to arbitrate the dispute, which contains two questions: ( 1)

whether

there is a valid agreement to arbitrate; and ( 2) whether the dispute in question
falls within the scope of that arbitration agreement.

determine

legal

whether

constraints

to

external

foreclosed the arbitration of those claims.

Then, the court must
the

parties'

agreement

Fleetwood Enterprises, Inc., 280

F. 3d at 1073.

Validity of the Agreement to Arbitrate
As to whether there is a valid agreement to arbitrate, arbitration is a

matter of contract, and a party cannot be required to arbitrate any dispute he
has not agreed so to submit. Snyder, 899 So. 2d at 63 (
of New Orleans, 2002- 1993 (

La. App. 4 Cir. 9/ 17/ 03),

denied, 2004- 0563 ( La. 4/ 23/ 04), 870 So. 2d 303).

citing Billieson v. City

863 So. 2d 557, 561,

writ

The burden of proof is on

Milliman to establish that a valid and enforceable arbitration agreement exists.

See Lafleur, 960

So. 2d at

109.

If Milliman

satisfies its burden

of proof

establishing its right to arbitration, the burden then shifts to the Commissioner to

demonstrate that he did not consent to arbitration or his consent was vitiated by
error, which rendered the arbitration provision unenforceable.

Id.

The policy favoring arbitration does not apply to a determination of
whether there is a valid agreement to arbitrate between the parties. Snyder,
899 So. 2d at 62.
bound.
matter,

Id.

Rather, ordinary state law contract principles determine who is

In determining whether the parties agreed to arbitrate a certain

courts apply the contract law of the particular state that governs the

agreement.

Id. at 61.

In making that determination

3,

Louisiana' s codal provisions concerning

choice of laws provide, in part, that the parties are free to select the law that will

3 The trial court did not address the choice -of -law provision contained in the Agreement. The
issue was first raised via the Commissioner's Post -Argument Brief filed after oral argument with
this Court. (

Commissioner' s Post Argument Brief, pp. 4- 8)
13

37

govern contracts ""except

to the extent that law contravenes the public policy of

the state whose law would otherwise be applicable under Article 3537." La. Civ.
Code art. 3540.

In this regard, the Agreement contains a choice -of -law provision

which states, in pertinent part, as follows: " The construction, interpretation, and

enforcement of this Agreement shall be governed by the substantive contract law
of the State of New York without regard to its conflict of laws provisions."

In order to determine if New York law should be applied, it must first be

determined whether Louisiana law is applicable under an analysis of La. Civ.

Code art. 3537 and, if so, whether New York law contravenes the public policy of
Louisiana. Louisiana Civil Code article 3537 provides that the issue of which state
law applies to a conventional obligation "

is governed by the law of the state

whose policies would be most seriously impaired if its law were not applied to
that issue." See also La. Civ. Code art. 3515.

In making this analysis, we must

look to each state' s connection to the parties and the transaction, as well as its
interests in the conflict, to determine which state would bear the most serious
legal,

social,

economic, and other consequences if its laws were not applied to

the issues at hand. La. Civ. Code art. 3537, 1991 Revision Comments —Comment

Generally, an appellate court will not consider issues raised for the first time on appeal.
Segura v. Frank, 630 So. 2d 714, 725 ( La. 1994).

Uniform Rules, Courts of Appeal, Rule 1- 3

further articulates that "[ t]he Courts of Appeal will review only issues which were submitted to
the trial court and which are contained in specifications or assignments of error, unless the

interest of justice clearly requires otherwise." As noted in the Official Revision Comment ( a) to
La. Code Civ. P. art. 2164, "[ t]he purpose of this article [ Article 2164] is to give the appellate

court complete freedom to do justice on the record irrespective of whether a particular legal

point or theory was made,

argued,

or passed on by the court below."

This Court has

considered a question of conflicts or choice of laws for the first time on appeal, when the
question

is

by the issues before it.
See e.g. Berard
Aerospace, LLC, 2009- 1202 ( La. App. 1 Cir. 2/ 12/ 10),

necessarily invoked

Communications Vertex

v.

L- 3

35 So. 3d

334, 340, n. 1, writ denied, 2010- 0715 ( La. 6/ 4/ 10), 38 So. 3d 302.

Because courts apply the contract law of the particular state governing the agreement
containing the arbitration provision when determining the validity of the arbitration provision,
we must determine what state' s law applies to the Agreement.
14

38

There is no record evidence as to the place of negotiation, formation, and
performance of the Agreement.

It is undisputed that LAHC is a Louisiana
Moreover, the object of the Agreement

corporation doing business in Louisiana.

was to prepare a feasibility study and assist with LAHC' s loan application to
enable it to offer insurance in Louisiana.

It is undisputed that Milliman is

domiciled in Washington with its principal place of business in Washington.

Louisiana has a strong public policy favoring the enforcement of arbitration
provisions.

However, the New York courts have prohibited the enforcement of

arbitration provisions in contracts with insurers when the insurer is insolvent and

is in either rehabilitation or liquidation.

See e.g. Matter of Allcity Insurance

Co., 66 A. D. 2d 531, 535- 38, 413 N. Y. S. 2d 929, 932 ( 1979);

Agency, Inc.
Washburn

reasons

v.

Holz, 4 N. Y. 2d 245, 251- 54,

v. Corcoran,

discussed

in

643

this

F. Supp.

opinion,

554,

Knickerbocker

149 N. E. 2d 885, 889 ( 1958);
556- 57 ( S. D. N. Y.

Louisiana

contains

no

1986).

such

For

limitation.

Therefore, La. Civil Code art. 3540 precludes the application of New York law

herein, because the application of New York law would reach a different result

than that reached by the application of Louisiana law.

Applying Louisiana law,

arbitration agreements and provisions are to be

enforced unless they are invalid under principles of Louisiana state law that
govern all contracts.

such

as

arbitration

fraud,

Lafleur, 960 So. 2d at 112.

duress,

agreements.

or

Id.

unconscionability,

Applicable contract defenses

may be

applied

to

invalidate

One of the conditions of a valid contract is the

consent of both parties. Id. ( citing

La. Civ. Code art. 1927).

The parties do not dispute that the underlying arbitration agreement, as
between LAHC and Milliman is valid.

signed the Agreement.

Representatives of both LAHC and Milliman

It is well- settled that a party who signs a written

instrument is presumed to know its contents.

15

Aguillard, 908 So. 2d at 17.

39

However, the Commissioner did not sign the Agreement and argues that he is
not bound to the arbitration provision contained therein.

Milliman responded

that the Commissioner has asserted claims against it based on Milliman' s alleged
breach

of the Agreement,

yet impermissibly seeks to avoid the arbitration

provision in that same Agreement.

A non -signatory to a contract containing an arbitration provision may be
bound by that provision under accepted theories of agency or contract law.
Courville v. Allied Professionals Insurance Co., 2016- 1354 ( La. App. 1 Cir.
4/ 12/ 17), 218 So. 3d 144, 148, n. 3, writ denied, 2017- 0783 ( La. 10/ 27/ 17), 228

So. 3d 1223 ( internal citations omitted).

When a signatory to a contract requiring
as in the

arbitration seeks to compel a non -signatory to arbitrate a dispute,
present

case,

the signatory is required to establish that the non -signatory

derived a direct benefit from the contract.
when

a

non -signatory

plaintiff

to

sues

Id.

Direct -benefit estoppel applies

enforce

a

contract

containing

arbitration provision yet seeks to avoid an arbitration provision.

Id.

an

The non -

signatory cannot have it both ways; he cannot rely on the contract when it works
to

his advantage and

disadvantage.
associated

Id.

then

repudiate

the

contract

when

it

negligence,

Milliman' s

to

his

On the other hand, when the non -signatory's claims are not

with the enforcement of the contract containing the arbitration

provision, the non -signatory is not bound to arbitrate those claims.
The

works

Commissioner

has

brought

breach

of

Id.

contract,

professional

and negligent misrepresentation claims against Milliman based on
allegedly

deficient

performance

under

the

Agreement.

The

Commissioner' s breach of contract claims against Milliman seek to enforce the
Agreement

containing

the

arbitration

provision.

Furthermore,

claims

for

negligence and negligent performance arising from work performed pursuant to
a contract may be contractual in nature and subject to the arbitration provision
16

40

in the contract.

See e.g. Green, 2014 WL 355820, at *

5- 7; Shroyer v. Foster,

2001- 0385 ( La. App. 1 Cir. 3/ 28/ 02), 814 So. 2d 83, 89, superseded by statute on
unrelated grounds, as stated in Arkel Constructors, Inc., 965 So. 2d at 458- 49.

Apart from the Agreement, there would have been no performance by Milliman
and

no

breach

alleged

misrepresentation.

professional

of

professional

standards

and

negligent

As such, the Commissioner's claims against Milliman for

negligence

and

negligent

misrepresentation,

like the claim

for

breach of contract, are associated with the enforcement of the Agreement,

making direct -benefit estoppel applicable.

The Commissioner, despite being a

non -signatory, cannot sue to enforce the Agreement and avoid the arbitration
provision.

Accordingly, the arbitration provision is valid.
Scope of the Arbitration Provision

Next, it must be determined whether, the Commissioner' s claims against

Milliman fall within the scope of the arbitration provision.

The Commissioner

argues that his claims do not arise from the Engagement Letter because the

Commissioner is not seeking a declaration of Milliman' s obligations thereunder
and his allegations against Milliman do not require the court to interpret the

Engagement Letter to determine Milliman' s obligations.
contractual

relationship

and

obligations

with

LAHC

Milliman argues that its
are

embodied

in

the

Engagement Letter, and the conduct complained of arises out of the contractual
relationship.

Milliman notes that it would not have had a duty to LAHC but for

the Agreement.

In construing an arbitration agreement under the FAA, for example,

a

determination of whether a dispute falls within an arbitration clause requires the
court to characterize the clause as "" broad" or " narrow."

62 (

Snyder, 899 So. 2d at

citing Hornbeck Offshore ( 1984) Corp. v. Coastal Carriers Corp.,

F. 2d 752, 754- 55 (

5t"

Cir. 1993)).

981

If the court finds that the clause is broad,

17

41

then any dispute between the parties falls within the scope of the clause if it is
connected with or related to the contract.

A narrow clause, for example,

Id.

restricts and requires that the dispute literally "
relate

to

the

Exploration &
5t" Cir. 1998).

to"

parties'

performance

of the

arise out of the contract"

contract.

Id. (

Production Co. v. Ramco Energy Ltd.,

and

citing Pennzoil

139 F. 3d 1061, 1067

However, a broad arbitration clause governs disputes that " relate
Pennzoil Exploration & Production

or " are connected with" the contract.

Co., 139 F. 3d at 1067.

The arbitration provision at issue states that "[

i] n the event of any dispute

arising out of or relating to the engagement of Milliman by Company [

LAHC],

parties agree that the dispute will be resolved by final and binding arbitration ..."
The term " any," when used in an arbitration provision, is broad.

See e.g. In Re

Complaint of Hornbeck Offshore ( 1984) Corp., 981 F. 2d 752, 755 ( 5t" Cir.
1993) ( arbitration clauses containing the " any

dispute" language are of the broad

type).

Moreover, other courts have found the phrase ""relating to," in particular,

to be very broad in the context of arbitration provisions. See e.g. Prima Paint
Corp. v. Flood & Conklin Manufacturing Co., 388 U. S. 395, 406, 87 S. Ct.
18011 1807, 18 L. Ed. 2d 1270 (

1967) ( agreement to arbitrate ""[a] ny controversy

or claim arising out of or relating to this Agreement, or the breach thereof"
easily broad

enough"

to

encompass

a

claim

of fraud

in

the

is

inducement

regarding the contract); See also Nauru Phosphate Royalties, Inc. v. Drago
Daic Interests, Inc., 138 F. 3d 160, 165 (

5t"

Cir. 1998); Hamel- Schwulst v.

Country Place Mortgage, Ltd., 406 Fed. Appx. 906, 913 ( 5t" Cir. 2010).

Furthermore, broad arbitration provisions mandating arbitration for claims
Alkarising from or relating to"

the contract have been found to include tort claims

such as negligent misrepresentation, negligent manufacture, and negligent repair

18

42

as well as any disagreement over any rights and violations reasonably traceable
to the pertinent contract.

See e.g. Rain CII Carbon LLC v. ConocoPhillips

Co., 2012- 0203 ( La. App. 4 Cir. 10/ 24/ 12),
2012- 2496 ( La.

1/ 18/ 13),

105 So. 3d 757, 763, writ denied,

107 So. 3d 631 ( arbitration clause providing "[ a] ny

controversy or claim arising out of or relating to this Agreement, or the breach
thereof, shall be settled by arbitration"

was broad enough to include breach of

contract claims as well as claims for negligent representation,

unfair trade

practices, and indemnification); See also Vector Electric & Controls, Inc. v.

ABM Industries Inc., No. CV315002523WDRLB ( M. D. La. Jan. 11, 2016), 2016
WL 126752 at * 5; Snyder, 899 So. 2d at 62 (

Club,

citing Izzi v. Mesquite Country

231 Cal. Rptr. 315 ( 1986). Therefore, we find the

186 Cal. App. 3d 1309,

arbitration provision at issue herein is of the broad type.

The Commissioner specifically alleged that Milliman was engaged,

via the

Engagement Letter dated August 4, 2011, to provide " actuarial support' for
LAHC,

including

Furthermore,

separate

the

production

of

Commissioner

engagement

letter

a

feasibility

alleged

dated

study

Milliman

that

November

premium rates in Louisiana" for LAHC.

13,

loan

and

was

2012,

application."

engaged,

to "

via

a

2014

develop

The remainder of the Commissioner' s

allegations attack Milliman' s actuarial work,

the feasibility study, pro forma

reports, actuarial memorandums prepared for the 2014 rate filings, and advice

on LAHC' s funding needs.

Each of these claims relates to LAHC' s engagement of

Milliman to provide a feasibility study, assist with LAHC' s loan application,

develop premium rates.

4

and

The roots of each of the Commissioner' s claims,

4 As noted, a copy of the Engagement Letter dated November 13, 2012, is not in evidence.
However, the copy of the Agreement in evidence reflects that its " terms and conditions will
apply to all current and subsequent engagements of Milliman by [ LAHC] unless specifically
disclaimed in writing by both parties prior to the beginning of the engagement." There is no
allegation or record evidence that either LAHC or Milliman

disclaimed the terms

of the

Agreement, in writing or otherwise, prior to the beginning of the November 2012 engagement.
Therefore, Milliman' s work under the 2012 engagement would fall under the terms of the
Agreement and the arbitration provision.
19

43

whether resounding in contract or tort, are the Agreement.

But for Milliman' s

allegedly defective performance under the Agreement, the Commissioner would
have no tort claim against Milliman.
The Commissioner further relies upon Taylor, a decision from the Ohio

Supreme Court, arguing that the claims do not fall under the scope of the
arbitration

provision,

because the Commissioner is not seeking a declaration of

Milliman' s obligations under the Agreement. In Taylor, Ernst &
an

independent

accounting

firm,

provided

Chambers Life Insurance Company (" ACLIC'.

auditing
E&

to the Ohio Department of Insurance C' ODI'.

Young (" E &
to

services

Y'),

American

Y submitted an audit report
The

audit was

undertaken

pursuant to an engagement letter signed by E & Y and ACLIC that contained an
arbitration clause.

The Taylor decision does not provide the exact language of

the arbitration provision but states that "[ t] he agreement provides that all claims
related to' the services covered in the engagement letter shall be arbitrated."
Id. at 1213, n. 5.

The superintendent later filed an action to place ACLIC in

rehabilitation,

a final

and

liquidation order was entered

based

on ACLIC' s

insolvency. The superintendent then filed suit against E & Y alleging that E &
had "" negligently

Y

failed to perform its duties as the independent certified public

accountant retained to conduct the audit of ACLIC' s December 31, 1998, Annual

Statement, thus breaching the duties owed (

i. e. the malpractice claim), and E &

Y had received preferential or fraudulent payments of more than $ 25, 000 ( i. e.
the preference claim).

E & Y sought to compel the matter to arbitration.

The Ohio Supreme Court found that the test for whether the claims fell
under

the

scope

of

the

arbitration

superintendent' s claims " relate to"

provision

was

not

whether

the

the subject matter of the engagement letter

but instead whether the liquidator, a non -signatory, asserted claims that arise

from the contract containing the arbitration clause.
20

Id. at 1213.

In reference to

44

the claim for malpractice, the court found that this claim arose from statutory
duties and certifications filed in public record by ACLIC and E &
seek judicial interpretation of the engagement letter.

Y and did not

The claims could be

resolved without reference to the engagement letter and did not arise from the

engagement letter and was not arbitrable.

As to the preference claim, the court

found that preference and fraudulent -transfer claims arise only by virtue of
statute and arise only in favor of the liquidator, and they could not as a matter of

law arise from a contract entered into by an insolvent insurer.
This

Court

is

not

bound

Supreme

by decisions of the Ohio

Nevertheless, the Taylor decision is distinguishable.

Court.

In Taylor, the liquidator

sued for breach of the auditor's statutory duties, specifically malpractice and
preference claims, that did not require reference to the contract or engagement
letter for determination.
of contract.

contract,

Moreover, the Taylor liquidator did not sue for breach

In the present case,

which

requires

the Commissioner is suing for breach of

reference to

the Agreement and

the

incorporated

Furthermore, the Commissioner' s claims for negligence and

Engagement Letter.

negligent misrepresentation are not determinable by reference to any particular
statutory duty of actuaries, and the Commissioner cites no statutory duty that
Milliman allegedly breached. As such, Taylor is distinguishable.
In the present case, each of the Commissioner' s claims relate to Milliman' s
engagement.

Moreover,

even if the scope of an arbitration clause is fairly

debatable or reasonably in doubt, the court should decide the question of
construction in favor of arbitration. Aguillard, 908 So. 2d at 18. Accordingly, all
of the Commissioner' s claims against Milliman fall within the scope of the
arbitration provision.

Whether the Claims Are Non -Arbitrable

21

45

Finally, it must be determined whether any statute or legal constraint
renders the matter non -arbitrable.
language

that

written

Both the FAA and the LBAL contain identical
to

agreements

arbitrate

disputes ""

shall

be

valid,

irrevocable, and enforceable, save upon such grounds as exist at law or in equity
for the revocation of any contract."

La. R. S. 9: 4201; 9 U. S. C. § 2.

Federal courts

interpreting the FAA allow for a determination to be made as to whether any
federal statute or policy renders the claims non -arbitrable.

Sherer v. Green

Tree Servicing LLC, 548 F. 3d 379, 381 ( 5th Cir. 2008). Utilizing federal cases
to interpret the LBAL,

it must be determined whether any statute or legal

constraints external to the parties' agreement foreclosed the arbitration of those
claims.

Mitsubishi Motors Corp.

Soler Chrysler—
Plymouth, Inc., 473

v.

U. S. 614, 628, 105 S. Ct. 3346, 3353- 55, 87 L. Ed. 2d 444 ( 1985); Sherer, 548
F. 3d at 381.

In this regard, the Commissioner argues that the RLC Act and La. R. S.

22: 257( F) preclude arbitration and venue is mandatory in the Nineteenth Judicial
Milliman argues that the Insurance Code does not grant the

District Court.

Commissioner greater rights than LAHC had, under the Agreement, and La. R. S.
22: 257( F) is not applicable because LAHC is not in " liquidation."

The RLC Act

sets forth the provisions pertaining to rehabilitation, liquidation, and conservation
of insurers.

La. R. S. 22: 2001.

La. R. S. 22: 2( A)( 1) states that insurance is "

industry affected with the public interest."

The Commissioner is charged with

the duty of administering the Insurance Code.
22: 2( A)( 1).

As

liquidator

or

an

rehabilitator

La. Const. art. IV, § 11; La. R. S.
of

an

insurance

company,

the

Commissioner acts as an officer of the state to protect the interests of the public,
the

policyholders,

Underwriters

the

creditors,

Ins. Co.,

571

the

and

So. 2d

610,

insurer.

615 ( La.

Green

1990).

v.

Louisiana

However,

the

Commissioner' s role as such does not involve the assertion or protection of any
22

46

state interest or right.

Id.

The Commissioner, in his role as liquidator or

rehabilitator, represents the insurer' s interests and not the state' s.

Id. at 615,

n. 10.

The statutory scheme for the liquidation and/ or rehabilitation of insurers is
comprehensive

and

Consultants, Inc.,

exclusive

in

Brown

scope.

v.

Associated

97- 1396 ( La. App. 1 Cir. 6/ 29/ 98), 714 So. 2d 939, 942.

Ins.
This

statutory scheme takes precedence over general law to the extent that the
general law is inconsistent with the provisions or purpose of the comprehensive,

statutory scheme.

Bernard v. Fireside Commercial Life Ins. Co., 92- 0237

La. App. 1 Cir. 1993),

633 So. 2d 177, 185, writ denied, 93- 3170 ( La. 1994), 634

So. 2d 839.
Louisiana Revised Statutes 22: 2004 ( renumbered from La. R. S. 22: 732. 3

by 2008 La. Acts, No. 415, §

1, eff. Jan. 1, 2009) is entitled "'Venue"

and states

as follows:
A.

An action under this Chapter brought by the commissioner of

insurance,

in that capacity,

or

as

conservator,

rehabilitator,

or

liquidator may be brought in the Nineteenth Judicial District Court
for the parish of East Baton Rouge or any court where venue is
proper under any other provision of law.

B. Any action under this Chapter may also be brought in the parish
where at least twenty-five percent of the policyholders of the insurer
reside.

C. If an action is filed in more than one venue, the court shall

consolidate all such cases into one court where venue is proper.

When originally added by 1993 La. Acts,

No. 955, §

1,

La. R. S. 22: 2004

stated as follows:

An action under this Part brought by the commissioner of insurance,
in that capacity, or as conservator, rehabilitator, or liquidator may be
brought in the Nineteenth Judicial District Court for the Parish of

East Baton Rouge or any court where venue is proper under any
other provision of law, at the sole option of the commissioner of

insurance.

See 1993 La. Acts, No. 955, § 1.

23

47

However, in

1997, the legislature amended the statute to its current form,

removing the language " at the sole option of the commissioner of insurance"
from the statute.

See 1997 La. Acts, No. 1298, §

actions brought by the Commissioner of Insurance,

1.

Accordingly, venue for

pursuant to the RLC Act, is

no longer at the sole option of the Commissioner or Insurance.

LAHC is in rehabilitation, pursuant to the Rehabilitation Order designating
the Commissioner as Rehabilitator and authorizing
maintain

all

administration

legal

actions

of the

necessary,

rehabilitation

wherever

the facts existing at the time suit is filed.
such,

to commence

necessary,
LAHC

proceeding.

liquidation, which is different than rehabilitation. 5

him

for

the

proper

presently is not

in

Prematurity is determined by

Houghton, 859 So. 2d at 106.

the exclusive venue provision of La. R. S. 22: 257( F)

does not render the matter non -arbitrable.

and

As

does not apply and

See also Wooley v. AmCare

Health Plans of Louisiana, Inc., 2005- 2025 ( La. App. 1 Cir. 10/ 25/ 06), 944

So. 2d 668, 677 n. 7 ( in a suit by the Commissioner against contractor of insolvent
insurer, this Court noted that there was "

no mandatory Louisiana venue statute

applicable herein and ... [ La. R. S. 22: 2004( A)

formerly]

La. R. S. 22: 732. 3 [( A)]

controls in Louisiana'.
Furthermore,
arbitration.

nothing

in

the

Rehabilitation

Order

expressly

prohibits

The Rehabilitation Order notes that the " Rehabilitator ... shall be and

5 Louisiana Revised Statutes 22: 2009 ( formerly La. R. S. 22: 736) sets out the duties of the
Commissioner as a rehabilitator.

272, 274 ( La. App. 1 Cir. 1990).

Dardar v. Insurance Guaranty Association, 556 So. 2d
Under this statute, the Commissioner conducts the business of

the insurer in an attempt to remove the causes and conditions which were grounds for the

rehabilitation and may apply to the court at any time for either an order directing liquidation, if
further efforts to rehabilitate the insurer would be futile, or for an order permitting the insurer
to resume control of the business, if the causes and conditions which made the proceeding
necessary have been removed. Id.
La.

R. S.

22: 2010 (

formerly La.

Commissioner as a liquidator.

R. S.

22: 737),

however,

Dardar, 556 So. 2d at 274.

deals

with

the

duties

of the

Under this statute, he may sell

property of the insurer, give notice to claimants of the insurer to present claims and, to protect

policyholders of the insurer whose contracts were cancelled by the liquidation order, solicit a

contract whereby a solvent insurer assumes some or all liabilities of former policyholders.
These acts for the most part are subject to the prior approval of the court. Id.
24

Id.

48

hereby are allowed and authorized to ... [

c] ommence and

maintain all legal

actions necessary, wherever necessary, for the proper administration of this
Moreover, contracts such as the Agreement remain

rehabilitation proceeding ..."
in " full force and effect,"

and "

LAHC providers and contractors [ such as Milliman]

are required to abide by the terms of their contracts with LAHC ..."
The
provisions

Commissioner
prevent

argues

that

However,

arbitration.

Rehabilitation

the

the

injunction

Order's

injunction

provisions

of

the

Rehabilitation Order are not applicable to bar arbitration because Milliman is not

suing LAHC, the Commissioner, or the Receiver and does not seek any property,
encumbrance,

Instead,

or

liability from

LAHC,

Milliman is the defendant.

the

Commissioner,

or

Moreover, the assertion

the

Receiver.

of exceptions,

including those asserting an arbitration provision like the present case, causes no
interference in violation of the Rehabilitation Order.

Citing this Court's decisions in LeBlanc v.
1381 ( La.

Bernard, 554 So. 2d 1378,

App. 1 Cir. 1989), writ denied, 559 So. 2d 1357 ( La.

1990),

and

Republic of Texas Savings Association v. First Republic Life Insurance
Co., 417 So. 2d 1251, 1254 (
1982),

La.

La. App.

1 Cir. 1982),

writ denied, 422 So. 2d 161

the Commissioner argues that public policy prohibits arbitration

because he ' owes an overriding duty to the public of the State of Louisiana"
does not stand precisely in the shoes of the insolvent insurer.

and

In LeBlanc, 554

So. 2d at 1379- 80, this Court found that the Commissioner does not stand in the

shoes of an insolvent insurer; however, in LeBlanc, a claim was brought against

the Commissioner as a party defendant by a plaintiff seeking to dissolve a sale

and regain certain immovable property under the control of the Commissioner in

his capacity as rehabilitator of an insurance company. Similarly, in Republic of
Texas Savings Association, 417 So. 2d at 1253- 54, the Commissioner objected
to

a

foreclosure

proceeding

being

brought

25

against the

insolvent

insurer' s

49

property, and this Court found that the Commissioner did not stand in the shoes

of the insolvent insurer in that he was not barred from raising certain defenses,

although the insurer may have been barred from asserting said defenses.
In the present case, the Commissioner,

as

plaintiff,

sued Milliman.

No

claims are being brought against the Commissioner, LAHC, or LAHC' s property,
as

contrasted

facts

with

of

LeBlanc

and

Republic

of

Texas

Savings

Since the LeBlanc and Republic of Texas decisions, this Court

Association.

has found that the Commissioner, as rehabilitator, " takes control of the insurer,

has the authority to conduct business ...

steps into the shoes of the insurer" and

is bound by the same constraints as is the insurer in the normal course of
business."

Dardar v. Insurance Guaranty Association, 556 So. 2d 272, 274

La. App. 1 Cir. 1990).

Similarly,

the

Rehabilitation

Order

states

that " LAHC

providers

and

contractors are required to abide by the terms of their contracts with LAHC ..."
Although

La.

R. S.

22: 2009( E)( 4)

allows the Commissioner to '

disavow any

contracts to which the insurer is a party," it only allows disavowal of an entire
contract rather than repudiating certain provisions. The Commissioner is bound

to the terms of the Agreement including the arbitration provision, as LAHC would
have been.
This Court is bound to uphold the arbitration provision, since we have

found no exception in the law or jurisprudence that would allow for an exception
to its enforcement.

In light of Louisiana' s strong public policy favoring arbitration

and consistent with the views expressed herein, we find that the trial court erred

in overruling Milliman' s exception.
CONCLUSION

For the reasons stated, the judgment of the trial court is reversed.

The

claims of the Commissioner against Milliman are dismissed, without prejudice.

Q.

50

REVERSED.

27

51

EXHIBIT D

East Baton Rouge Parish Clerk of Court

Page 1 of 4

52

East Baton Rouge Parish Clerk of Court

Page 2 of 4

53

East Baton Rouge Parish Clerk of Court

Page 3 of 4

54

East Baton Rouge Parish Clerk of Court

Page 4 of 4

55

56

EXHIBIT E

57

58

59

60

61

62

63

EXHIBIT F

64

65

66

67

68

69

70

71

72

73

74

75

76

77

78

79

80

81

82

83

84

85

86

87

88

89

90

91

92

93

94

95

96

97

98

99

100

101

102

103

104

105

106

107

108

EXHIBIT G

109

110

